1
.✓

0 651r1ce

RECEIVED
DEC 0 6 2019
No.

OFFICE OF THE CLERK
SUPREME COURT, U.S.

IN THE
SUPREME COURT OF THE UNITED STATES

Khashon Haselrig —PETITIONER

VS.
Stephanie Inslee —RESPONDENT

PROOF OF SERVICE

I Khashon Haselrig, do swear or declare that on this date, December 2, 2019, I
have served the enclosed EXTENSION OF TIME TO FILE PETITION FOR A
WRIT OF CERTIORARI on each party to the above proceeding or that party's
counsel, and on every other person required to be served, by depositing an envelope
containing the above documents in the United States mail properly addressed to
each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days. The names and addresses of
those served are as follows:

Counsel to Stephanie Inslee
Shepherd and Allen
2011 Young St, Suite 202
Bellingham, WA 98225

Stephanie Inslee
2638 East Smith Rd
Bellingham, WA 98226

Linda Borland
726 Fuschia Loop
Bellingham, WA 98226

Counsel to Indira Raichoudhury
Christopher C. Lee Esq.
Aiken, St. Louis & Siljeg, P.S.
801 2nd Avenue, Suite 1200
Seattle, WA 98104

University of British Columbia
Office of University Counsel
500-5950
Vancouver, BC V6T 1Z3

I declare under penalty of perjury that the foregoing is true and correct.
Executed on Dec 3 2019

WhQshoo

selle?-y

s'o? Ai IA' 1s3
F-ci) pion

7301?

